Mem
  morandum from
              m the Office of th
                               he Inspector Ge
                                             eneral



July 7, 2011

Kim
  mberly S. Grreene, WT 7B-K

 EQUEST FOR FINAL AC
RE                 CTION – AUDIT 2010-13
                                       3661 – DIST
                                                 TRIBUTOR A
                                                          AUDIT OF
SEVIER COUN
          NTY ELECTRIC SYSTEM



Atta
   ached is the
              e subject fina
                           al report for your
                                         y     review and action. Your written commentss,
which addresse ed your man nagement de   ecision and a
                                                     actions plannned or taken
                                                                             n, have been
                                                                                        n
included in the report. Plea
                           ase notify us s when final action is complete.

Info
   ormation con
              ntained in th
                          his report ma ay be subjecct to public disclosure. P
                                                                             Please advisse us
of any
   a sensitivee informationn in this repo
                                        ort that you rrecommend be withheld  d.

If you
   y have any  y questions, or wish to discuss
                                        d                         ase contact me or Richa
                                                our ffindings, plea                     ard C.
Underwood, Ac  cting Directo            or Audits, at (423) 785-4824. We ap
                           or, Distributo                                   ppreciate the
                                                                                        e
couurtesy and cooperation received
                           r             m your staff during the a
                                      from                        audit.



Robert E. Martin
Ass
  sistant Inspe
              ector Genera
                         al
 (A
  Audits and Inspections)
ET 3C-K

JLM
  M:JP
Atta
   achment
cc (Attachmentt):
      Steve Byone, WT 4B   B-K
      Michael B.
               B Fussell, WT
                           W 9B-K
      Peyton T. Hairston, Jr.,
                            J WT 7B-K  K
      Tom Kilgoore, WT 7B--K
      Richard W.
               W Moore, ET E 4C-K
      Robert A. Morris, WT  T 7C-K
      Emily J. Reynolds,
               R           OCP
                           O     1L-NST
      Stephen B. Summers     s, WT 4B-K
      John M. Thomas
               T        III, MR
                             M 6D-C
      John G. Trawick,
               T        WT  T 3D-K
      Robert B.. Wells, WT 9B-K
      OIG File No. 2010-13  3661
        
 


                                 Audit Report
 
Office
      of the Inspector General                               

                                 To the Group President,
                                 Strategy and External  
                                 Relations
                                                             

 

 

 

 

 


DISTRIBUTOR AUDIT OF
 

 

SEVIER COUNTY
ELECTRIC SYSTEM

 




 

 
 
 

 
Audit Team                                 Audit 2010-13661
Stephanie L. Simmons                             July 7, 2011
Jessica L. Monroe
Office of the Inspector General                              Audit Report




ACRONYMS AND ABBREVIATIONS
FY                         Fiscal Year
kW                         Kilowatt
OIG                        Office of the Inspector General
SEDC                       Southeastern Data Cooperative
TVA                        Tennessee Valley Authority




Audit 2010-13661
Office of the Inspector General                                                                       Audit Report




TABLE OF CONTENTS
EXECUTIVE SUMMARY ................................................................................ i

BACKGROUND................................................................................................ 1

FINDINGS ......................................................................................................... 2
   IMPROPERLY CLASSIFIED CUSTOMERS IDENTIFIED ............................... 2

   CUSTOMER CONTRACTS NOT OBTAINED CONSISTENTLY...................... 3

   CASH RESERVES FALL WITHIN TVA GUIDELINES
   FOR ADEQUATE CASH RATIO ...................................................................... 4

RECOMMENDATIONS .................................................................................. 5


APPENDICES

A. OBJECTIVE, SCOPE, AND METHODOLOGY

B. LETTER DATED JUNE 30, 2011, FROM RICHARD HARRELL AND ALLEN
   ROBBINS TO ROBERT E. MARTIN

C. MEMORANDUM DATED JUNE 30, 2011, FROM KIMBERLY S. GREENE TO
   ROBERT E. MARTIN




Audit 2010-13661
                    Audit
                    A     201
                            10-13661 – Sevierr County E
                                                      Electric S
                                                               System
                                        EXE
                                          ECUTIVE S
                                                  SUMMAR
                                                       RY

Why the
      e OIG Did This
                T    Audit

    As part of our annual
                   a       audit plan, the OIIG (Office off the Inspecttor General) audited Sevvier
    Couunty Electric
                   c System's compliance with
                                            w the pow    wer contract b between the e Tennessee e
    Valley Authorityy (TVA) and Sevier, a poower distribu utor based in n Sevierville, Tennessee e, for
    the audit period
                   d July 2008 through
                                 t       June 2010. Keyy contract prrovisions inccluded (1) prroper
      porting of ele
    rep            ectric sales, (2)
                                 ( nondiscrimination in providing po    ower, and (33) use of elecctric
    revenue for app proved purposes. For fiscal year 20   010, Sevier p provided pow wer to
      proximately 54,000
    app             5       custoomers that resulted
                                            r         in ellectric sales revenue of approximate  ely
    $13
      34 million.

What th
      he OIG Fou
               und

    Sevvier generally appears to o be in comp
                                            pliance with the contractt provisions for (1) prope
                                                                                              er
    rep
      porting of ele             ( nondiscrimination in providing po
                   ectric sales, (2)                                ower, and (3 3) use of elecctric
    revenue for app proved purposes. Howe   ever, areas ffor improvem
                                                                    ment in contrract complia ance
    werre noted. Sp pecifically, we
                                 w found:

        983 custom mer accounts  s that appeared to be po  otentially missclassified. Sevier revie
                                                                                                  ewed a
                     1 of these customer accounts and
         sample of 159                                      d determined  d 28 accounts (17.6 perccent)
         were miscla assified. Although the monetary
                                              m           effe
                                                             ect on Sevieer and TVA w  was not
         significant, the misclasssification of customer
                                                c          acccounts coulld impact compliance with the
         proper repo orting of elec
                                  ctric sales an
                                               nd/or nondisscrimination power contrract provisions.
         (Note: Sev vier subsequently reclass   sified the 28
                                                            8 customer a accounts.)
        Customer contracts
                  c         we
                             ere not obtain
                                          ned for some
                                                     e customerss as required
                                                                            d by TVA.

What th
      he OIG Rec
               commends
                      s

   We re ecommend thet Group President,
                                P           Strategy and EExternal Relations, workk with Sevierr to
   (1) im
        mplement pro ocedures to assist in ide
                                             entifying andd preventing classificatio
                                                                                   on issues,
   (2) re
        eview the rem
                    maining acco ounts identiffied as being                        ed and correct
                                                          g potentially misclassifie
   where e applicable
                    e, and (3) improve compliance with p  power contra act provision
                                                                                   ns related to
   custoomer contraccts.

Manage
     ement’s Co
              omments
   Sevieer and TVA managemen
                    m          nt agreed witth our recom
                                                       mmendationss and have ttaken or are
   taking
        g actions to address the
                               e recommend dations. The e target com
                                                                   mpletion date
                                                                               e for all
   corre
       ective actions
                    s is June 2012. See Appendix B forr Sevier’s coomplete respponse and
   Appeendix C for TVA’s
                   T      compleete responsee.

Auditorr’s Response
   The OIG     s with actions taken and planned by Sevier and TVA to correct the identtified
       O concurs
   issue
       e.

                                                                                                 P
                                                                                                 Page i
Office of the Inspector General                                                                Audit Report


BACKGROUND
Sevier County Electric System is a power distributor for the Tennessee Valley
Authority (TVA) based in Sevierville, Tennessee, with revenues from electric sales
of approximately $134 million in fiscal year (FY) 2010. Prior to April 1, 2011, TVA
relied on distributors to self-report customer usage and subsequently the amount
owed to TVA (Schedule 1). Customers are generally classified as residential,
commercial, manufacturing, and lighting. Within these classes are various rate
classifications based on the customer type and usage. Table 1 shows the
customer mix for Sevier as of June 2010.

             Sevier's Customer Mix and Power Statistics as of June 2010
                                               Number of                                   Kilowatt
        Customer Classification                                        Revenue
                                               Customers                                  Hours Sold
    Residential                                         32,832           $44,714,741        503,772,437
    General Power – 50 Kilowatt (kW)
                                                        19,461            38,903,014        376,014,029
    and Under (Commercial)
    General Power – Over 50 kW
                                                         1,253            48,524,881        564,523,880
    (Commercial or Manufacturing)
    Street and Athletic                                    143               565,877           7,010,814

    Outdoor Lighting1                                      385               969,515           6,464,110

    Unbilled Revenue                                                         793,227           8,438,585

     Total                                              54,074         $134,471,255       1,457,785,270
                                                                                                   Table 1

TVA’s distributors are required to establish control processes over customer
setup, rate application, and measurement of usage to ensure accurate and
complete reporting to TVA. Sevier, like many other distributors, outsources its
billing and invoice processing to a third-party processor, Southeastern Data
Cooperative (SEDC). Sevier uses SEDC systems to establish and set up new
customers, input customer meter information, perform the monthly billing process,
and maintain customer account information. Additionally, SEDC provides Sevier
with management reporting capabilities (e.g., exception reports) designed to
ensure the accuracy and completeness of the customer invoice and the
purchased power invoice (Schedule 1) to TVA. All other accounting and finance
responsibilities are handled by Sevier, which has a Board of Directors who
provide oversight and a Superintendent and management team who manage the
daily activities.



1
     The “Number of Customers” represents those customers who only have Outdoor Lighting accounts with
     Sevier at June 30, 2010. In addition, another 4,176 customers had Outdoor Lighting accounts as well as
     accounts for other services. However, the totals for “Revenue” and “Kilowatt Hours Sold” include both
     categories of Outdoor Lighting customers.
Audit 2010-13661                                                                                    Page 1
Office of the Inspector General                                                                      Audit Report


FINDINGS
Sevier generally appears to be in compliance with the contract provisions for
(1) proper reporting of electric sales, (2) nondiscrimination in providing power,
and (3) use of electric revenue for approved purposes. However, we found
improvements were needed (1) in customer classification that could impact
compliance with the proper reporting of electric sales and/or nondiscrimination
power contract provisions and (2) to comply with contract provisions related to
obtaining customer contracts as required by TVA.
As of June 30, 2010, Sevier had enough cash on hand to cover planned FY 2011
capital expenditures and provide a cash reserve equivalent to a cash ratio of
about 7 percent, which is within TVA's established guidelines for an adequate
cash ratio of 5 to 8 percent.

IMPROPERLY CLASSIFIED CUSTOMERS IDENTIFIED
We identified customer classification issues that could impact the (1) proper
reporting of electric sales and/or (2) ability to ensure nondiscrimination in
providing power to members of the same rate class.2 The monetary effect on
Sevier and TVA was not significant. However, correcting customer classification
issues is important to ensure all customers are placed in the correct rate
classification and charged the same rate as other customers with similar
circumstances.
We noted 983 customer accounts that appeared to be potentially misclassified
based on customer name and/or the existence of multiple accounts at the same
address. At our request, Sevier reviewed a sample of 159 of these customer
accounts that we judgmentally selected and determined 28 accounts
(17.6 percent) were incorrectly classified. The 28 customer accounts were
classified under the Residential Rate – Schedule RS,3 although they should have
been classified under the General Power Rate – Schedule GSA.4 The GSA
2
    Section 5 Resale Rates subsection (a) of the power contract between TVA and the Municipality of
    Sevierville states “…power purchased hereunder shall be sold and distributed to the ultimate consumer
    without discrimination among consumers of the same class and that no discriminatory rate, rebate, or
    other special concession will be made or given to any consumer, directly or indirectly.”
3
    Under the Residential Rate – Schedule RS, customers are classified based on the following requirement:
    “This rate shall apply only to electric service to a single-family dwelling (including its appurtenances if
    served through the same meter), where the major use of electricity is for domestic purposes such as
    lighting, household appliances, and the personal comfort and convenience of those residing herein.”
4
    Under the General Power Rate – Schedule GSA, customers are classified based on the following
    requirements:
     GSA Part 1 – If (a) the higher of (i) the customer’s currently effective contract demand, if any, or (ii) its
        highest billing demand during the latest 12-month period is not more than 50 kW and (b) the
        customer’s monthly energy takings for any month during such period do not exceed 15,000 kilowatt
        hours.
     GSA Part 2 – If (a) the higher of (i) the customer’s currently effective contract demand or (ii) its
        highest billing demand during the latest 12-month period is greater than 50 kW but not more than
        1,000 kW or (b) the customer’s billing demand is less than 50 kW and its energy takings for any
        month during such period exceed 15,000 kilowatt hours.
     GSA Part 3 – If the higher of (a) the customer’s currently effective contract demand or (b) its highest
        billing demand during the latest 12-month period is greater than 1,000 kW.
Audit 2010-13661                                                                                           Page 2
Office of the Inspector General                                                                 Audit Report


schedule is divided into three parts—Part 1, Part 2, and Part 3—based on
electric usage and demand.5 The monetary impact of the classification issues
detailed below would not be significant to Sevier or TVA. Specifically, we noted:

    Seventeen customer accounts were separately metered structures, such as a
     barn, garage, workshop, maintenance room, etc., that should be classified
     within the appropriate part of the GSA schedule based on usage and demand
     takings.
    Five customer accounts were overnight rentals. According to Sevier policy,
     overnight rental accounts should be classified within the appropriate part of
     the GSA schedule based on usage and demand takings.
    Three customer accounts were group homes. According to TVA personnel, a
     group home is not considered a single-family dwelling; therefore, the
     RS schedule does not apply. Group homes should be classified within the
     appropriate part of the GSA schedule based on usage and demand takings.
    Three customer accounts were businesses that should have been classified
     within the appropriate part of the GSA schedule based on usage and demand
     takings.

According to Sevier personnel, the 28 customer accounts have been reclassified
from residential to the appropriate part of the GSA schedule.

CUSTOMER CONTRACTS NOT OBTAINED CONSISTENTLY
Sevier did not have a customer contract on file for six of the fifteen GSA Part 3 or
higher customer accounts. The power contract requires all customers who
exceed 50 kW per month to sign a formal contract. However, in February 2011
TVA issued guidance to distributors changing the contract requirement threshold
from 50 kW to 1 megawatt with flexibility for distributors to implement a lower
limit. The guidance also stated currently effective, signed contracts should be
retained in customer files for all customer accounts that meet the threshold
requirement. Each customer contract includes a contract demand that is used in
placing the customer in the correct classification. Contract demand is also used
in calculating the customer’s billed demand and minimum bill.


5
    Demand is a measure of the rate at which energy is consumed. The demand an electric company must
    supply varies with the time of day, day of the week, and the time of year. Peak demand seldom occurs
    for more than a few hours or fractions of hours each month or year, but electric companies must maintain
    sufficient generating and transmission capacity to supply the peak demand. Demand charges represent
    the high costs electric companies pay for generating and transmission capacity that sits idle most of the
    time. Demand charges are based on the amount of energy consumed in a specified period of time
    known as a demand interval. Demand intervals are usually 15 or 30 minutes. (Engineering Tech Tips,
    December 2000, Dave Dieziger, Project Leader, United States Department of Agriculture Forest Service,
    Technology & Development Program, http://www.fs.fed.us/eng/pubs/htmlpubs/htm00712373/index.htm.)
    For TVA distributors, the commercial and manufacturer Schedules of Rates and Charges direct that
    metered demand be calculated as “the highest average during any 30-consecutive-minute period of the
    month of the load metered in kW.”
Audit 2010-13661                                                                                      Page 3
Office of the Inspector General                                                                      Audit Report


CASH RESERVES FALL WITHIN TVA GUIDELINES FOR
ADEQUATE CASH RATIO
Section 6 of the TVA power contract, “Use of Revenues,” states approved uses of
revenue from electric system operations, including any surplus, are (1) operating
expenses, (2) debt service, (3) reasonable reserves for renewals, replacements,
and contingencies, and (4) tax equivalent payments. As discussed below, we
found Sevier had enough cash on hand at June 30, 2010, to cover planned
FY 2011 capital expenditures and provide a cash reserve equivalent to a cash
ratio of about 7 percent, which is within TVA’s established guidelines for an
adequate cash ratio of 5 to 8 percent.

As of June 30, 2010, Sevier reported about $18.1 million in its cash and cash
equivalent accounts.6 Sevier management provided the planned FY 2011 capital
expenditures, as shown in Table 2 below.

                       Sevier's FY 2011 Planned Capital Expenditures

                         Capital Expenditure Plans                                         Project Cost

Substations                                                                                         $4,000,000
Line Extensions                                                                                      5,000,000
Trucks                                                                                                  392,000
Other General Items                                                                                     218,000
    Total Planned Capital Expenditures                                                              $9,610,000
                                                                                                        Table 2

When compared to Sevier's planned capital expenditures for FY 2011, the
balance in Sevier's cash accounts at June 30, 2010, was enough to pay for these
items and leave about $8.5 million as a reserve. Table 3 shows Sevier's cash
ratio was about 15 percent before accounting for planned FY 2011 capital
expenditures and about 7 percent after accounting for them.

                            Sevier's Cash Accounts and Cash Ratio
                               Cash and Cash FY 2011 Planned Reserve after Planned
                                Equivalents Capital Expenditures Capital Expenditures
    FY 2010                           $18,127,197                   $9,610,000                      $8,517,197
    Cash Ratio                             14.92%                                                        7.01%
                                                                                                         Table 3




6
     TVA reviews the cash ratios of distributors as part of its regulatory rate review function. Cash ratio is
     calculated as follows:                         Cash + Cash Equivalents_______________________
                            Total Variable Expenses (Operations and Maintenance + Purchased Power)
Audit 2010-13661                                                                                           Page 4
Office of the Inspector General                                                              Audit Report


According to TVA records, over the past five years Sevier was approved for four
rate increases. Table 4 shows the rate increases received by Sevier and the
cash position and cash ratio at June 30 prior to the effective date of each rate
increase.

               Sevier's Rate Increases, Cash Position, and Cash Ratio

      Cash on Hand               Cash and Cash                            Rate Increase8
    Equivalent to an 8%      Equivalents7 as Reported
                                                            Additional
        Cash Ratio               and Cash Ratio                             Percent     Effective Date
                                                            Revenue

        $9,717,776                  $15,327,197                 $966        0.001%         1/1/2010
                                     (CR = 12.62%)

       $10,342,908                  $11,175,829                $6,436        0.01%         9/1/2008
                                     (CR = 8.64%)

        $8,759,612                   $8,475,725             $3,670,923       3.25%         4/1/2008
                                     (CR = 7.74%)

        $8,126,199                   $6,398,095             $3,946,670       4.55%         10/1/2006
                                     (CR = 6.30%)
                                                                                                Table 4

Discussions with Sevier management indicated its operating philosophy is
generally conservative. Sevier prefers to keep a low debt to cash ratio, but
management is comfortable entering into debt, where appropriate. Sevier's goal
is to maintain 40 to 50 days cash on hand.

RECOMMENDATIONS
We recommend the Group President, Strategy and External Relations, work with
Sevier to improve compliance with the contract provisions. Specifically, Sevier
should:

1. Implement procedures to assist in identifying accounts that need to be
   reclassified and prevent classification issues from recurring.

      Sevier’s Response – Procedures are in place to help prevent
      misclassifications of accounts. The accounts that were identified in the audit
      were aged accounts that had not or were not addressed during our
      conversion to SEDC. Today, during the sign up of a new account, the
      Customer Service Representatives ask specific questions as to the intent of
      the account, and once Sevier personnel make a site visit, they look for any
      discrepancies as to what the meter order states. Also, the sign up requires
      the customer to specifically check the intent use of the electricity. On an

7
     The cash and cash equivalents and cash ratio were computed based on information from Sevier's annual
     report as of June 30 prior to the effective date of the rate increase.
8
     These are the rate increases requested by and approved for the distributor. These increases do not
     include any rate increases or decreases made by TVA, including Fuel Cost Adjustments, which were
     passed through by the distributor to the customer.
Audit 2010-13661                                                                                  Page 5
Office of the Inspector General                                          Audit Report


    annual basis, Sevier staff will review reports that may reflect multiple
    accounts for one location address or corporate accounts with residential
    classifications. See Appendix B for Sevier’s complete response.

    TVA Management’s Comments – TVA management agreed that the power
    contract requires consistent classification of customers in accordance with the
    provisions of the applicable rate schedule. TVA will discuss this
    recommendation with Sevier. The target completion date for this is June
    2012. See Appendix C for TVA’s complete response.

    Auditor’s Response – The OIG concurs with the planned actions.

2. Review the remaining accounts identified by TVA’s Office of the Inspector
   General as potentially misclassified based on customer name and/or the
   existence of multiple accounts at the same address and correct
   misclassifications where applicable.

    Sevier’s Response – Of the 983 customer accounts identified as potentially
    misclassified, we eliminated 388 customers from the list based on the intent
    of actual electric usage. These accounts were apartment and condominium
    complexes that temporarily connect into the managing entities' name until a
    new tenant moves in or were a foreclosed property that now resides in a
    financial institution's name. This now brings the total number of customers to
    be reviewed to 436 (159 were reviewed, with 28 being corrected as
    mentioned in the audit statement). The balance of these accounts will be
    reviewed by System personnel, and any misclassification will be corrected.
    See Appendix B for Sevier’s complete response.

    TVA Management’s Comments – TVA management agreed that the power
    contract requires consistent classification of customers in accordance with the
    provisions of the applicable rate schedule. TVA will discuss this
    recommendation with Sevier. The target completion date for this is June
    2012. See Appendix C for TVA’s complete response.

    Auditor’s Response – The OIG concurs with the planned actions.

3. Obtain contracts for all customers with actual or contract demand in excess of
   1 megawatt. 

    Sevier’s Response – The System attempted to acquire power contracts on
    customers with 1 megawatt requirements, where a power contract was not
    already on file, in early January 2011. On May 31, 2011, we sent a
    notification letter and contract for signature. See Appendix B for Sevier’s
    complete response.




Audit 2010-13661                                                               Page 6
Office of the Inspector General                                       Audit Report


    TVA Management’s Comments – TVA management agreed that Sevier
    should obtain contracts with customers with actual or contract demand in
    excess of 1 megawatt. Sevier will work with customers whose contract
    demand exceeds 1 megawatt to obtain signed contracts. The target
    completion date for this is June 2012. See Appendix C for TVA’s complete
    response.

    Auditor’s Response – The OIG concurs with the planned actions.




Audit 2010-13661                                                           Page 7
                                                                        APPENDIX A
                                                                         Page 1 of 2

OBJECTIVE, SCOPE, AND METHODOLOGY
This audit was initiated as a part of our annual workplan. The objective was to
determine compliance with key provisions of the power contract between the
Tennessee Valley Authority (TVA) and Sevier County Electric System including:

   Proper reporting of electric sales by customer class to facilitate proper
    revenue recognition and billing by TVA.
   Nondiscrimination in providing power to members of the same rate class.
   Use of revenues, including any surplus, for approved purposes, such as:
     Operating expenses
     Debt service
     Tax equivalent payments
     Reasonable reserves for renewals, replacements, and contingencies

To achieve our objective, we:

   Obtained electronic billing data for the audit period. To validate the reliability
    of the billing data, we compared the data to the information reported to TVA
    on the Schedule 1. No significant differences were noted, therefore the data
    was deemed reliable.
   Performed queries on data to identify classification, metering, and contract
    compliance issues. Reviewed results of the queries and, using nonstatistical
    sampling, selected accounts for further analysis and follow-up to determine
    whether misclassification, metering issues, or noncompliance with contract
    requirements occurred. Since nonstatistical sampling was used, projection of
    the results was not appropriate.
   Limited our work on internal controls to those control deficiencies identified as
    contributing to noted instances of noncompliance with the power contract
    and/or the TVA Act.
   Determined through inquiry and review of documentation whether Sevier had
    any nonelectric, system-related business interests supported by electric
    system revenues.
   Obtained disbursements listings for the audit period. Reviewed and analyzed
    disbursements to identify instances where electric system funds may have
    been used for purposes not allowed under the TVA power contract. Used
    nonstatistical sampling to select questionable disbursements for further
    analysis and follow-up. Since nonstatistical sampling was used, projection of
    the results was not appropriate.
   Reviewed cash and cash equivalents in relation to planned capital
    expenditures and other business uses of cash.
                                                                    APPENDIX A
                                                                     Page 2 of 2

OBJECTIVE, SCOPE, AND METHODOLOGY (cont.)

When evaluating results of our audit work, we used both qualitative and
quantitative factors when considering the significance of an item. For the
purposes of this audit, the quantitative factor considered in determining an item’s
significance is whether the item exceeds 3 percent of the average annual
purchased power from TVA for the audit period. For this audit, this amount
equaled $3,314,614. Also for the purposes of this audit, we considered any errors
identified as systemic or intentional as significant.

The scope of the audit was for the period July 2008 through June 2010.
Fieldwork was conducted February 2011 through April 2011 and included visiting
Sevier's offices in Sevierville, Tennessee. This performance audit was
conducted in accordance with generally accepted government auditing
standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings
and conclusions based on our audit objectives. We believe that the evidence
obtained provides a reasonable basis for our findings and conclusions based on
our audit objectives.
APPENDDIX B
 Page 1 of 2
APPENDDIX B
 Page 2 of 2
APPENDDIX C
 Page 1 of 1
